                                                           Un ited States Department of Stale
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General


SENSITIVE BUT UNCLASSIFIED
                                                                OCT 1 5 2009
MEMORANDUM

TO:            BBG Executive Director - Jeffrey Trimble                    /.IJ~

FROM :         OIGIISP - Raben B. Peterson, Assistant Inspector   ~r11.f.&            ~
                                                                              nspections

SUBJECT:       Memorandum Report, Broadcasting Board of Govemors Operations in Sarajevo,
               ISP-ffi-IO-IS


       The Ollice of Inspector General conducted a limited inspection of the Broadcasting
Board of Governors (BBG) operations in Sarajevo. Bosnia and Herzegovi na. The inspection
took place in May 2009 in conjunction with an inspection of Embassy Sarajevo.

       U.S. international broadcasting entities in Sarajevo successfully produce and market
programs that reflect American society and report accurate, objective, and balanced news,
information, and programming about America and the world. The entities receive good support
from Embassy Sarajevo w hen needed.

        BBG has two co located orfices in Sarajevo. The first is the Office o f Marketing and
Program Placement (OMPP). which is responsible for marketing and placing Voice of America
radio and television programs and Radio Free EuropelRadio Liberty (RF ElRL) radio and
television programs with affiliate stations in Bosnia and Herzegovina. The second office is
RFElRL, which produces radio and television programs for placement on Bosnia and
Herzegovina affiliate stations and contributes to the regional program broadcast from Prague for
the entire Balkan region.

        OMPP is under the management of a contractor who reports to the regional officc of
BBG's international Broadcasting Bureau in Prague. OMPP 's goal is to ensure its programs
reach all of Bosnia and Herzegovina and it currently has 68 affiliate stations throughout the
country. Broadcast media entities in Bosni a and Herzegovina regularly seek to become affiliate
stations. The OMPP representative expressed particular interest in adding affiliate statio ns in
Republika Srpska, where the media is under increasing pressure from the ethnic Serb
government. (According to the embassy's human rights report, Bosnian government respect for
freedom ofspecch and the press declined during 2008 and some prominent individuals who
criticized the government were the target of government reprisals). OMPP also arranges annual
workshops or seminars for Bosnia and Herzegovina affiliate stations, which take place in
Sarajevo and usually cover new broadcasting technology. The contractor who represents OMPP
in Sarajevo is able to make use of the embassy facili ties to receive and ship the technical
equipment for the affiliate stations.

                            SENSITIVE BUT UNCLASS IFI ED 

       OMPP reported no problems with the affiliate stations in Bosnia and Herzegovina, and
audience response to the programs has been positive. According to InterMediil's 2008 national
survey. Voice of America radio, television, and Internet combi ned had an annual reach of30.2
percent of the popUlation in 2008. RFEIRL's total media reach in Bosnia and Hei.legovina was
22.5 percent. In comparison, British Broadcasting Corporation radio in Bosnia had a 2008
annual reach of7.6 percent, while Deutsche Welle's annual reach was 11.6 percent.

         The RFE!RL main office in Sarajevo produces daily radio programs that are transmitted
to affiliate stations for broadcast twice a day, each morning and each afternoon. It also transmits
daily radio programs produced in Prague in the afternoon and evening. RFElRL's TV Liberty
produces a weekly television magazine that it transmits to 30 stations for broadcast on Sunday
evening. With funding from the Organization for Security and Cooperation in Europe, TV
Liberty produces a program called "Open Parliament," in whieh students representing all regions
of Bosnia and Herzegovina have the opportunity to come to Sarajevo to question members of
parliament during the program. TV Liberty produces 12 open parliament segments per year and
broadcasts them during the parliamentary sessions.

        RFEIRL has six employees and 18 full-time freelan cers in Sarajevo, 11 correspondents in
various parts of Bosnia and Her.lcgovina, and a branch o(fice in Banja Luka. Its corresponden ts
and affiliates in Banja Luka and other parts of Republika Srpska have faced some political
pressure from the Prime Minister ofRepublika Srpska. All of the RFEIRL affiliates in Banja
Luka have continued to broadcast RFEJRL programs, however. Iranian Radio and TV's dail y
television program broadcasts anti·American news and propaganda in Bosnia and Heilegovina.
According to RFEIRL management, AI·Jazeera has a regional office in Sarajevo and broadcasts
cxtensively, but does not compete with RFEiRL

        RFEIRL has excellent cooperation with the embassy, particularly with the office of
public affairs. RFEIRL interviews the Ambassador on a regular basis and provides coverage of
the U.S. Agency for lntemational Development projects, including those dealing with human
trafficking and drug abuse and important events like Vice President Bidell's visit.




                          SENSITIVE BUT UNCLASSIFrEO
cc: 	   Janice H. Brambilla, Director of Management Planning, BBG
        Jeffrey Gedmin, President, Radio Free Europe/Rad io Liberty
        Danforth W. Austin, Director, Voice of America
        John Welch, Special Advisor to lntemational Broadcasting Bureau Director
        Doug Boynton, Office o f M.arketing and Program Placement, international Broadcasting
        Bureau
        Barbara Tripp, Management Analyst, Voice of America




                          SENSITrvE BUT UNCLASSIFIED
